                                       National Science Foundation
                                            4201 Wilson Boulevard
                                           Arlington, Virginia 22230


Office of Inspector General




MEMORANDUM

DATE:              JAN 11 2007

TO:                David Elizalde, Director
                   Division of Acquisition and Cooperative Support (DACS)

FROM:              Deborah H. Cureton
                   Associate Inspector General for Audit

SUBJECT: NSF OIG Audit Repor t No. 07-1-006, Cost Im pact Analysis regarding Raytheon’s
         CAS Noncompliance and Rayt heon Polar Services Co mpany’s Cost Accounting
         Standards Board Disclosure Statement


At our request, Defense Contract Audit Agency (DCAA) prepared th e attached letter assess ing
the financial impact on NSF’s United States Antarctic Program (USAP) contract of a change that
Raytheon Polar Services Com pany (RPSC) has pr oposed in the disclo sed accoun ting practices
that the con tractor is ob ligated to f ollow in performing the USAP contract. If approved, NSF
will incur an estim ated                     of increased indire ct costs for the last five years of th e
contract. T his amount is in addition to the                       of indirect costs RPSC im properly
claimed and we reported on in prior audits for th e first fiv e years of th e USAP contrac t. The
letter also discusses tw o other issues associated with RPSC’s noncompliance w ith its Federal
Disclosure Statement that we have also reported on previously.

Background Information

Previously we reported to your office 1 that RPSC did not comply with Federal Cost Accounting
Standard (CAS) 418 which requires that RPSC consistently classi fy costs on the USAP contract
as stated in its Disclosure Statem ent. In the contract NSF awarded to RPSC’s parent com pany,
Raytheon T echnical Services Company (RTSC) in 1999, RTSC certified that R PSC would
comply wit h the Disclosure Statem ent of th e parent company, RTSC. However, since the
inception of the USAP contract through December 31, 2004 (five ye ars), RPSC did not com ply

1
 Reference NSF OIG Audit Report No. 06-1-001, “Audit of Raytheon Polar Services Company’s Noncompliance
with Cost Accounting Standard 418, Allocation of Direct and Indirect Costs for Fiscal Years 2000 to 2002,” dated
March 21, 2006.
with RTSC's disclosed accounting pr actices for distinguishing direct costs from indirect costs.
This resulted in RPSC improperly claim ing                  of indirect costs as direct costs from
2000 through 2004 in its incurred cost subm issions to NSF for these five years. On August 22,
2006, the Defense Contract Manage ment Agency (DCMA) issued a final determ ination of
RPSC's noncom pliance with CAS 418 and its disc losed accounting practices to RT SC for the
three-year period ending December 31, 2002. DCAA also indicated that th e condition causing
the noncompliance remained in effect for years 2003 and 2004, although DCMA has not issued a
finding of noncompliance for this two-year period.

To address the noncom pliance, RPSC filed a new Disclosure Statem ent on April 17, 2006 with
an effective date retroactive to January 1, 200    5. In th is new Disclo sure Sta tement RPSC
proposes to change its previous disclosed accou nting practice to begin the process o f making it
allowable to
                                                     . As indirect costs, these
     2
costs were subject to indirect rate ceiling caps under the previous RTSC Disclosure Statem ent.
This change would now allow RPSC to fully char ge these previously unallowable indirect costs
to the USAP contract as direct costs. Although required in order to m ake such a change, RPSC
has not provided a cost impact proposal to enable NSF to assess the financial implications of this
proposed change on the USAP contract. Theref ore, to ensure NSF and the National Science
Board are aware of the am ount of in creased costs that will result from this change to the USAP
contract, we requested DCAA to provide an esti mate of the amount of r esulting increased costs
from January 1, 2005 until the anticipated com pletion of the USAP contract in 2010. DCAA' s
calculation of the cost im pact and other asso ciated CAS issues are summarized below and
provided in full in the attached letter.


Cost Impact of Proposed Change to RPSC Disclosed Accounting Practice

DCAA found that RPSC’s new proposed Disc losure Statement to reclassify its
costs from indirect to direct costs will result in about                of increased costs to the NSF
USAP contract from 2005 through 2010. If accepted by NSF this change would allow RPSC to
continue direct charging                                that we re previously not allowable and for
which RTSC was cited for a noncom           pliant accounting practice by DCMA. In addition,
depending on how DCMA and NSF reso lve the previously unallowable
                 as well as the improper                                                          and
indirect costs over ceilings                      reported in our prior audits, NSF could potentially
incur as much as                more in indirect costs over the life of the USAP contract than was
contractually agreed upon.

2
  This                  of improperly claimed indirect costs from 2000 through 2004 is made up of                   of
indirect costs in noncompliance with CAS and                  of indirect costs over indirect cost ceilings, as cited in
the five DCAA audit reports (one for each year) referenced in DCAA’s attached letter.
3


4
                   does not include               of other direct and              questioned for 2000 through 2004.
The total questioned costs for 2000 through 2004                    and the estimated increased costs for 2005 through
2010             brings the total potential increased costs on the USAP contract to               .



                                                           2
Initial Disclosure Statement for RPSC

DCAA also indica tes that becaus e RPSC is a separate organiza tional entity fro m RTSC, i t
considered the RPSC Di sclosure Statement submitted to DCMA and DCAA in April 2006 to b e
an initial subm ission. However, while this is the fi rst Disclosure Statem ent for RPSC as a
separate organizational entity, this Disclosu re Statem ent f unctions as a r evised Disclosu re
Statement for the pu rposes of the USAP contract . This is because un der FAR, a contract, as
opposed to an organizational unit of an entity, is subject to F ederal Cost Accounting Standards. 3
DCAA agreed that th e new Disclos ure Statement from RPSC is to propose changes in RPSC’s
disclosed and established accounting practices imp acting th e USAP contract, as evidenced by
DCAA’s cost impact proposal calculation discussed above.

Disclosure Statement Changes Made to Correct the Noncompliance

DCAA states that since RTSC did not follow th e Disclosure Statem ent it certified to under the
NSF contract award, it is submitting the new Disclosure Statement to correct the non compliance
as opposed to m aking “voluntary changes” in acc ounting practice. A ccordingly, DCAA states
that recovery of increased costs should be pursued “for any failure to comply with an applicable
CAS or to follow a disclosed practice." 4 FAR a lso provides for recovery of interest costs if a
contractor f ails to comply with an applicab le CAS or to f ollow a ny cost accounting practic e
consistently.


Recommendations

We recommend that the Divisi on Director, Division of Acquisition and Cooperative Support
(DACS):

    1. For the 2000 through 2004 contract period, work with the Defense Contract Managem ent
       Agency (DCMA) to recover all indirect costs together with applicable interest that RPSC
       claimed in noncom pliance with its Di sclosure Statem ent including                    of
                                                                 of                        , and
                    of cost in excess of ceiling, for a total of         in indirect costs; and

    2. For the 2005 through 2010 contr act period, work with NSF’s Office of Polar P rograms
       (OPP) and DCMA to a ssess the desirability of RPSC’s pr oposed change in disclosed
       accounting practice in light of the associated                 of increased contract costs. If
       determined to be desirable in part or in     total, negotia te a modif ication of the USAP
       contract with RPSC to for mally ref lect the change in contract term s and conditions for
       charging locally incurred costs.



5
 Reference 48 CFR 9903.201, CAS Applicability.
6
 Reference FAR 30.602-2, FAR 52.230-6(a)(3), and FAR 52.230-2(a)(5) regarding noncompliance with CAS
requirements.



                                                    3
We consider the CAS is sues and the cost im pact amount of t he change in disclosed accounting
practice discussed in DCAA’s attached letter to be significant. Accordingly, to help ensure that
the findings are resolved within six months of issuance of the audit report, please coordinate with
our office during the resolution     period to develop a mutually      agreeable audit reso lution
memorandum.

We are providing a copy of this m emorandum to the Director of the Office of Polar Program s.
However, since the responsibility for audit resolution rests with DACS, we ask that no action be
taken concerning the report’s findings without first consulting DACS at (703) 292-8242.


OIG Oversight of DCAA Analysis

The Office of Inspector General reviewed the letter prepared by DCAA and coordinated issuance
of this letter to NSF. DCAA is responsible for the attached audito r’s letter on RPSC and the
conclusions expressed in the letter. Th   e NSF OIG doe s not express any opinion on the
conclusions presented in DCAA’s letter.

If you have any questions about this report, please contact David Willems at (703) 292-4979 or
Jannifer Jenkins at (703) 292-4996.




Attachment: DCAA Letter dated December 21, 2006

cc: Thomas Cooley, Director, BFA
    Mary Santonastasso, Director, DIAS
    Karl Erb, Director, OPP




                                                4
                  MID-ATLANTIC REGION HERNDON BRANCH OFFICE
                        DEFENSE CONTRACT AUDIT AGENCY
                               BUILDING 2, 3RD FLOOR
                            171 ELDEN STREET, SUITE 305
                              HERNDON, VA 20170-4810
                              TELEPHONE
                                  FAX
                         E-Mail Address:

6161-Polar          Decem                                                        ber 21, 2006

Ms. Deborah H. Cureton, Associate Inspector General for Audit
National Science Foundation (NSF)
4201 Wilson Boulevard
Arlington, VA 22230

Subject: Polar Services Contract

Dear Ms. Cureton:

       Our audit report on the recently submitted Polar Services CAS disclosure statement has
generated several issues/concerns based on our meeting of December 13, 2006 as follows: (1)
whether the Polar Services CAS disclosure statement is an initial or revised submission; (2)
whether any changes included in the Polar Services CAS disclosure statement represent
voluntary accounting changes; and (3) calculation of a cost impact/increased costs to the
Government.

       1.    Polar Services CAS Disclosure Statement

             We believe the Polar Services CAS disclosure statement with an effective date of
             January 1, 2005 is an initial submission. This is the first CAS disclosure statement
             that Polar Services submitted as a separate entity of Raytheon Technical Services
             Company (RTSC). Prior to this submission, Polar Services was part of the RTSC
             CAS disclosure statement. This single CAS disclosure statement described the cost
             accounting practices of all RTSC entities including Polar Services. Therefore, we
             concluded that the Polar Services CAS disclosure statement was an initial
             submission and we only performed an initial adequacy audit of cost accounting
             practices. That is, we reviewed the initial CAS disclosure statement to determine
             whether it adequately described the cost accounting practices to be used for
             estimating, accumulating, and reporting contract costs. After the cognizant Federal
             agency official (CFAO), the contracting officer assigned to administer CAS, deems
             the initial CAS disclosure statement adequate, then we will perform an initial audit
             of compliance to determine whether the described cost accounting practices
             comply with CAS and FAR Part 31.
6161-Polar         Decem                                                          ber 21, 2006
Ms. Deborah H. Cureton, Associate Inspector General for Audit
National Science Foundation (NSF)

       2.    Voluntary Accounting Changes

             Any change a contractor makes in its cost accounting practices is generally referred
             to as a “voluntary change.” This would include a change in the contractor’s
             disclosed and established accounting practices. The definition of a voluntary
             change is broad and should be considered within the context of FAR 30.602,
             Changes to disclosed or established cost accounting practices.

             FAR 30.602-1 applies when a contractor is required to make a change to comply
             with a new or modified Cost Accounting Standard. FAR 30.602-3 applies when a
             contractor makes a voluntary change from an existing compliant accounting
             practice to another compliant practice. FAR 30.602-2 applies to noncompliances
             with CAS requirements and practice changes needed to correct CAS
             noncompliances. In addition, FAR 52.230-6 requires a cost impact proposal for
             each of these changes (required, voluntary, and noncompliance) as well as an
             equitable adjustment of the contract price or accumulated costs.

             We issued a CAS noncompliance audit report dated June 23, 2005 (Audit Report
             No. 6161-2005T19200001) where we determined that the contractor did not
             consistently apply its classification of costs on the Polar Services contract and, as
             such, was in noncompliance with CAS 418 and its disclosed accounting practices.
             As a result, any increased costs (either contract price and/or cost accumulation)
             should be pursued under FAR 30.602-2 and FAR 52.230-6(a)(3) because these
             FAR provisions specifically address CAS noncompliant accounting practices and
             any practice changes needed to correct noncompliances. Since the contractor did
             not follow the RTSC CAS disclosure statement regarding the classification of
                                 which we reported as a CAS noncompliance, it would seem that
             any subsequent actual or perceived changes are being made to correct the
             noncompliance instead of a decision to voluntarily change an accounting practice
             from an existing compliant practice.

             We do not believe that any actual or perceived changes resulting from CAS
             noncompliances (changing a noncompliant practice to a complaint practice) such as
             those that may involve the                          or                    would be
             subject to FAR 30.602-3 and represent voluntary changes. Instead, changes
             involving complaint practices that the contractor voluntarily makes usually for
             business reasons are subject to FAR 30.602-3. For example, a contractor decides
             to voluntarily change a disclosed and established G&A cost input base (complaint
             practice) to a value-added input base (another complaint practice) for business
             reasons.


                                                2
6161-Polar         Decem                                                          ber 21, 2006
Ms. Deborah H. Cureton, Associate Inspector General for Audit
National Science Foundation (NSF)

       3.    Calculation of Cost Impact

             The need for a cost impact proposal arises under two (2) sets of circumstances: (1)
             changes to a cost accounting practice, and (2) noncompliance with CAS. The
             purpose of the cost impact proposal in the case of a change to a cost accounting
             practice is to determine the cost shifts among CAS-covered contracts, and to
             estimate the appropriate adjustments, if any, to contract prices or cost allowances.
             In the case of noncompliance, the purpose of the cost impact proposal is to
             determine if the failure to comply resulted in increased costs to the government,
             and to estimate the appropriate adjustments, if any, to contract prices or cost
             allowances. For example, adjust the contract for what the price would have been if
             the CAS noncompliance had not occurred.

             The accounting practices included in the Polar Services initial CAS disclosure
             statement may eliminate the CAS noncompliances, but it does not eliminate the
             requirement to determine whether there is a cost impact to the Government,
             including any impact of the noncompliance on cost accumulations and/or on
             contract price based on FAR 30.602-2 and FAR 52.230-6(a)(3).

             We believe the CAS noncompliance associated with the
                               resulted in an impact on cost accumulations only. We did not find
             any evidence where the contractor classified these costs differently as part of the
             contract price. That is, the contractor’s disclosed and established practice is to
             classify flowdown costs as an indirect cost and we believe these costs were treated
             the same in determining the contract price. Our assumption is based on a letter that
             RTSC forwarded to NSF several months after contract award where it wanted to
             start charging                           direct to the Polar Services contract.
             Therefore, the cost impact should reflect the period when the contractor started
             accumulating and/or charging these flowdown costs direct to the Polar Services
             contract until it discontinued this noncompliant practice. In other words, the period
             that the CAS noncompliance impacted accumulated costs.

             We believe the CAS noncompliance associated with
                                                     resulted in an impact on contract price. The
             contractor’s disclosed practice is to
                                                                          . This assumption is
             based on the contractor having billed                      costs direct to the Polar
             Services contract since the start of contract performance and continues to do so
             today. As a result, this CAS noncompliance has an impact on the contract price for
             the entire anticipated period of performance. This CAS noncompliance impacted
             estimated costs and ultimately the contract price.

                                               2
6161-Polar         Decem                                                       ber 21, 2006
Ms. Deborah H. Cureton, Associate Inspector General for Audit
National Science Foundation (NSF)

             We have computed cost impacts of the CAS noncompliance associated with the
             Raytheon Corporate/RTSC flowdown costs and local management costs (see
             Enclosure). The contractor has never provided a cost impact for our review so we
             have estimated the cost impacts based on the best data available.

       If you have any questions, please contact me at telephone               or my e-mail
address:

                                                   Sincerely,


                                                   /Signed/


                                                   Branch Manager

Enclosure




                                               3
6161-Polar         ENCLOSURE
Ms. Deborah H. Cureton, Associate Inspector General for Audit                 Page 1 of 2
National Science Foundation (NSF)

                                 Polar Services Contract
                   CAS Noncompliance –
                                  Estimated Cost Impact


                Fiscal Year       Audit Report Reference Cost                  Impact
                   2000 6161-2000P10100001
                   2001 6161-2001P10100001
                   2002 6161-2002P10100001
                   2003 6161-2003P10100201-S1
                   2004 6161-2004P10100201-S1
                   Total


Note: The cost accumulations included in the cost impact for the noncompliance related to the
flowdowns were taken directly from the incurred cost audit reports. There is no projection of
these costs into future periods beyond the period of noncompliance. This impact constitutes
increased costs to the Government because the reclassification of                       to a complaint
accounting practice (i.e., indirect rather than direct) causes the adjusted indirect rate to exceed
the contract’s respective ceiling rate.
6161-Polar         ENCLOSURE
Ms. Deborah H. Cureton, Associate Inspector General for Audit               Page 2 of 2
National Science Foundation (NSF)

                                 Polar Services Contract
                       CAS Noncompliance –
                                 Estimated Cost Impact


             Fiscal Year Audit           Report/Note Cost                      Impact
                 2000 6161-2000P10100001
                 2001 6161-2001P10100001
                 2002 6161-2002P10100001
                 2003 6161-2003P10100201-S1
                 2004 6161-2004P10100201-S1
                 2005 Note                   1
                 2006 Note                   1
                 2007 Note                   1
                 2008 Note                   1
                 2009 Note                   1
                 2010 Note                   2
           Total Cost Impact


Note 1: We estimated the cost impact for fiscal years 2005 through 2009 by projecting the
increase in the costs incurred for the initial four (4) years of the contract through the period of
performance. The projection was calculated based upon the average percent increase resulting in
a         increase per year. The            increase was then added to the previous years’ amounts
consecutively through calendar year 2009.

Note 2: We estimated the final year of the contract in the same manner as 2005 through 2009
with the exception that the contract period of performance ends on March 31, 2010. We
therefore only included the equivalent of three (3) months costs for FY 2010. This impact
constitutes increased costs to the Government because the reclassification of
costs to a complaint accounting practice (i.e., indirect rather than direct) causes the adjusted
indirect rate to exceed the contract’s respective ceiling rate.
